Nos. 19-1231, 19-1241

In the Supreme Court of the United States
FEDERAL COMMUNICATIONS COMMISSION, ET AL.,
Petitioners,
v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.
NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
Petitioners,
v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.
On Writs of Certiorari to the
United States Court of Appeals for the Third Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that the Brief of the Leadership Conference on Civil and
Human Rights, the Leadership Education Fund, and 16 Other
Public Interest Organizations as Amici Curiae contains 7,278
words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on December 23, 2020.

___________________
Elizabeth Brannen
Stris & Maher LLP

